Audit of the USAID/Colombia-Financed Coca Alternative
Development Program Under the Plan Colombia
Supplemental Appropriation


Audit Report No. 1-514-02-005-P

January 16, 2002




                   San Salvador, El Salvador
U.S. Agency for
 International
 Development

RIG/San Salvador

January 16, 2002

MEMORANDUM
FOR:               USAID/Colombia Director, Kenneth C. Ellis

FROM:              RIG/San Salvador, Timothy E. Cox

SUBJECT:           Audit of the USAID/Colombia-Financed Coca Alternative
                   Development Program Under the Plan Colombia Supplemental
                   Appropriation (Report No. 1-514-02-005-P)

This memorandum is our report on the subject audit. In finalizing the report, we
considered your comments on our draft report. Your comments are included in
their entirety in Appendix II.

This report contains two recommendations for your action. Based on your
comments, a management decision has been reached for both recommendations. A
determination of final action for these recommendations will be made by the
Bureau for Management’s Office of Management Planning and Innovation
(M/MPI/MIC).

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                   1
Table of   Summary of Results                                        3
Contents
           Background                                                3

           Audit Objective                                           4

           Audit Findings                                            5

                  Is the USAID/Colombia-financed coca alternative
                  development program on schedule to achieve
                  planned outputs?                                   5

                         Coca Alternative Development Program
                         not on schedule                             5

                         Inconsistent planned program outputs        6

                         Planned activity outputs
                         not documented                              7

           Management Comments and Our Evaluation                    8

           Appendix I - Scope and Methodology                        9

           Appendix II - Management Comments                        11




                                                                         2
Summary of   As part of its fiscal year 2001 audit plan, the Regional Inspector General/San
Results      Salvador performed this audit to determine whether the USAID/Colombia-financed
             coca alternative development program was on schedule to achieve planned outputs.
             (See page 4.)

             The USAID/Colombia-financed coca alternative development program was not
             on schedule to achieve planned outputs as of September 30, 2001, which were to
             eliminate 900 hectares of coca, provide assistance to produce 1,200 hectares of
             licit crops or livestock, and provide assistance to 825 families. In addition, we
             identified two weaknesses in the mission’s system for monitoring the achievement
             of outputs and are making two recommendations that should help
             USAID/Colombia better ensure that planned outputs are achieved. (See pages 5
             through 8.)

             USAID/Colombia agreed with our report and recommendations and has made
             management decisions to implement both of them. (See page 8.)



Background   In October 1999, the Government of Colombia announced a $7.5 billion counter-
             narcotics plan known as Plan Colombia. Plan Colombia proposes to reduce the
             cultivation, processing, and distribution of narcotics by 50 percent over six years.
             To assist the Colombian Government in carrying out Plan Colombia, on July 13,
             2000, the U.S. Congress appropriated $869 million in supplemental funding to the
             Department of State, of which $123.5 million has been allocated to USAID.
             USAID/Colombia received this funding in September 2000.

             Of the $123.5 million, $42.5 million relates to an alternative development program
             under USAID/Colombia’s Strategic Objective No. 2, “Promote Economic and
             Social Alternatives to Illicit Crop Production.” USAID/Colombia defines alternative
             development as a process designed to improve social and economic conditions in
             illicit crop producing areas, thereby encouraging small farmers to voluntarily
             abandon illicit crop production. It promotes the growth and stability of a legal
             economy based on sustainable production and marketing of agricultural, forestry,
             and fishery products. USAID/Colombia obligated the $42.5 million devoted to this
             strategic objective through an amendment to an agreement that it had with the
             Government of Colombia. This amendment added a five-year (2000-2005) coca
             alternative development (CAD) program.

             The CAD program is implemented primarily through a contract awarded on March
             30, 2001 to Chemonics. 1 According to USAID/Colombia, as of September 30,
             2001, $33.5 million was committed and $1 million was spent. Chemonics, working
             1
              The scope of our audit did not include some smaller agreements with Chemonics, the United
             Nations, and others. Commitments and accrued expenditures for these organizations, as reported
             by USAID/Colombia as of September 30, 2001, were $6.2 million and $3.3 million, respectively.



                                                                                                              3
            with a Colombian governmental organization and USAID/Colombia, is responsible
            for achieving program outputs. Chemonics implements the program primarily by
            awarding grants and subcontracts (sub-agreements) to municipal governments,
            regional and local producer organizations, non-governmental organizations, and the
            private sector. The program provides social and economic incentives to help small
            farmers and communities eliminate coca and develop sustainable legal economies.
            Targeted communities will participate in activities such as: agriculture-based
            programs, road and bridge rehabilitation/construction and local government
            strengthening.

            The successful accomplishment of the CAD program is hindered by security
            constraints beyond the control of USAID/Colombia or Chemonics.
            Specifically, from June to September 2001, there were 12 security incidents
            reported involving USAID/Colombia programs. These incidents included
            kidnappings, threats, detainments, thefts, and killings of USAID/Colombia
            partners and recipients. Because of the imminent dangers in rural areas of
            Colombia, non-Colombian staff cannot perform site visits without massive
            security precautions. In addition, because of recent assassinations of the
            Colombian attorney general’s wife and an employee of one of the non-
            governmental organizations (NGOs) working in Putumayo, Colombia, security
            concerns have increased and some NGOs have pulled out of the region. This
            impacts Chemonics’ operations significantly because Chemonics planned to work
            with some of these NGOs on the CAD program. In addition, security threats
            make it more difficult to find people willing to work with Chemonics because to
            do so is seen as a danger in and of itself.



Audit
            As part of its fiscal year 2001 audit plan, the Regional Inspector General/San
Objective   Salvador performed the audit to answer the following question:

            •      Is the USAID/Colombia-financed coca alternative development program on
                   schedule to achieve planned outputs?

            The audit scope and methodology is presented in Appendix I.




                                                                                                 4
Audit      Is the USAID/Colombia-financed coca alternative development program on
Findings   schedule to achieve planned outputs?

           The USAID/Colombia-financed coca alternative development program was not
           on schedule to achieve planned outputs as of September 30, 2001, which were to
           eliminate 900 hectares of coca, provide assistance to produce 1,200 hectares of
           licit crops or livestock, and provide assistance to 825 families. Additionally, we
           identified two weaknesses in the mission’s system for monitoring the achievement
           of outputs and make two recommendations that should help USAID/Colombia
           better ensure that planned outputs are achieved. These weaknesses are discussed
           in the sections below entitled Inconsistent Planned Program Outputs and Planned
           Activity Outputs Not Documented.

           CAD Program Not on Schedule

           As of September 30, 2001, USAID/Colombia reported that less than a fourth of
           the planned outputs had been achieved. The reason for not achieving planned
           outputs was a delay in awarding the Chemonics contract, which resulted in a four-
           month delay in starting the CAD program. As a result, the intended beneficiaries
           had not received the planned level of benefits. Planned versus actual outputs are
           shown in the following chart.

                 Description of        Planned as         Reported         Verified2        Verified
                Planned Output         of 9/30/01           as of            as of         Percentage
                                                           9/30/01          9/30/01         Achieved
               Hectares of coca                  900               0                0              0%
               eliminated
               Hectares of licit               1,200              260              200              17 %
               crops and livestock
               to be produced
               Direct beneficiaries              825              200              200              24 %
               to be served

           The shortfall in actual outputs was caused by delays in project start-up resulting
           from unanticipated complexities in contracting for the CAD contractor.
           USAID/Colombia had planned on selecting a contractor and awarding the
           contract in December 2000. It issued the request for proposal on time in
           September 2000, held the pre-proposal conference on time in early October, and
           received the proposals on time in November. However, the proposals received
           were very closely competitive, necessitating follow-up with offerers and two
           additional proposal reviews. Additionally, the proposal review process was
           2
            Chemonics purchased sufficient seeds to support the production of 200 hectares of licit crops,
           which served 200 farm families. Although the mission reported the support of 260 hectares of licit
           crops, we are not making a recommendation that it correct the reporting discrepancy because
           Chemonics plans on updating reported information as outputs are verified during spot-checks.


                                                                                                            5
complicated by the fact that USAID/Colombia did not have a contracting officer
in country. As a result, the contract to the winning bidder, Chemonics, was not
signed until the end of March 2001. Chemonics did not arrive in country until
mid-May 2001. Because of this delay, the time available to achieve planned
outputs by September 30, 2001, the cutoff date for our audit, was significantly
reduced.

As a result of the start-up delays discussed above, the intended beneficiaries had
not received the planned level of benefits.

Inconsistent Planned Program Outputs

Because of the sensitivity of this program, it is important that plans be consistent
among the Government of Colombia, Chemonics and USAID/Colombia. This is
highlighted in a U.S. General Accounting Office audit report 3 that stated that, in
order to help ensure that U.S. counternarcotics assistance is used most effectively,
U.S. implementation plans need to be completed and coordinated with the
Colombian plans so that U.S. assistance is adequately supported and plans for its
use clearly identified and agreed to.

For the CAD program, however, there were inconsistencies in planned outputs
agreed upon with the Government of Colombia and Chemonics, on one hand, and
USAID/Colombia’s internal performance monitoring plan, on the other. In the
agreement between USAID/Colombia and the Government of Colombia and in
the contract with Chemonics, outputs to be achieved by September 30, 2002 are
as follows:

           Description of Output                        Planned as of 9/30/02
    Hectares of coca eliminated                                                   13,000
    Hectares of licit crops planted                                               32,000
    Families benefited by CAD activities                                           5,700

These targets do not agree with USAID/Colombia’s performance monitoring plan,
which states that outputs to be achieved by September 30, 2002 are:

            Description of Output                       Planned as of 9/30/02
    Hectares of coca eliminated                                                   11,500
    Hectares of licit crops and livestock to
    be produced                                                                   26,500
    Direct beneficiaries to be served                                              5,000

The targets identified in USAID/Colombia’s agreement with the Colombian
government were the targets as of the date of execution, 4 which were from a
3
  Drug Control: U.S. Assistance to Colombia Will Take Years to Produce Results (GAO-01-26,
October 17, 2000)
4
  Outputs were defined in an amendment signed September 27, 2000.


                                                                                             6
design document prepared in March 2000 by a USAID/Colombia contractor.
Subsequent to this design exercise, the mission obtained updated information
about estimated levels of coca production by small farmers (the target of its CAD
program) and more accurate project objectives/outputs were developed.
However, because the targets are relatively close and it would be very time
consuming to change the agreement with the Colombian government and the
contract with Chemonics, USAID/Colombia stated that they would strive to
meet—and should be able to achieve by September 30, 2002—the outputs in the
contract with Chemonics and the agreement with the Government of Colombia.

Because USAID/Colombia’s performance monitoring plan does not use the same
planned outputs as the USAID/Colombia agreement with the Government of
Colombia and the Chemonics contract, the planned benefits to be provided are
unclear.

       Recommendation No. 1:      We recommend that USAID/
       Colombia amend its performance monitoring plan to agree
       with the planned outputs contained in its contract with
       Chemonics and its agreement with the Government of
       Colombia.

Planned Activity Outputs
Not Documented

In its contract with USAID/Colombia, Chemonics is required to implement and
maintain a computerized information database system for tracking program data
and indicators such as the achievement of planned outputs.

The database used by Chemonics did not contain information about the expected
outputs of activities to be implemented. A report on planned and actual activities
provided by Chemonics showed 19 activities totaling $45 million of which two
had been approved and funded as of September 30, 2001. However, this tracking
system did not identify to what extent, or by when, activities would result in the
achievement of outputs specified in the Chemonics’ contract. For example, the
number of hectares of coca to be eliminated was not identified for any of the
planned activities. In addition, the information regarding outputs contained
within the sub-agreements for the two funded activities did not sufficiently define
intended outputs and timeframes for reaching them. With respect to the definition
of terms, the activity sub-agreements did not define “families benefited” in the
same way that USAID/Colombia defined them in its performance monitoring
plan. Additionally, one activity sub-agreement stated that 200 hectares of crops
would be planted while USAID/Colombia’s performance monitoring system and
Chemonics’ tracking system stated that 260 hectares of crops would be planted.

These ambiguities and inconsistencies occurred because the activities currently
being implemented were designed by a Colombian governmental organization,


                                                                                    7
                 and Chemonics had little direct knowledge of these activities. In addition, outputs
                 for planned activities were in varying stages of development by both Chemonics
                 and the Colombian governmental organization. During a strategic planning
                 exercise intended to be performed in July 2001, Chemonics and
                 USAID/Colombia planned on laying out activities to be implemented and
                 preparing an annual workplan geared towards the achievement of planned
                 outputs. However, because of the delays in program start-up, there was a pressing
                 need to implement activities as soon as possible, and therefore, it was decided to
                 postpone the planning exercise until December 2001.

                 As a result of the delay in this planning exercise and the resulting ambiguities in
                 what planned activities are to be accomplished, USAID/Colombia and other
                 interested parties cannot be assured that the CAD program will result in the
                 achievement of planned outputs specified in Chemonics’ contract by September
                 30, 2002.

                        Recommendation No. 2:       We recommend that USAID/
                        Colombia review Chemonics’ annual workplan and sub-
                        agreements to ensure that all documents use the same
                        definitions and timeframes and are sufficiently clear and
                        specific as to determine how and by when outputs will be
                        achieved.



Management       In its comments to our draft report, USAID/Colombia accepted both
Comments and     recommendations. For the first recommendation, the mission stated that it would
Our Evaluation   amend the performance monitoring plan once expected program outputs were
                 finalized during the annual planning exercise in December 2001.

                 For the second recommendation, the mission stated that, once the annual
                 workplan is finished by Chemonics, and approved by USAID/Colombia, all
                 documentation, including individual activity sub-agreements, would be amended
                 in order to reflect same definitions, timeframes and outputs.

                 We agree that management decisions have been reached for both
                 recommendations.




                                                                                                       8
                                                                                      Appendix I

Scope and     Scope
Methodology
              We audited the USAID/Colombia’s Coca Alternative Development (CAD) program
              in accordance with generally accepted government auditing standards. We
              conducted the audit at USAID/Colombia from September 27, 2001 through October
              11, 2001.

              The audit covered the CAD program, which was funded with the Plan Colombia
              supplemental appropriation (Public Law 106-246, dated July 13, 2000). The CAD
              program began in March 2001, when Chemonics, the primary implementer, and
              USAID/Colombia signed a contract. The audit covered $33.5 million in obligations
              and $1 million in accrued expenditures, as reported by the mission’s accounting and
              control system from the project’s inception through September 30, 2001.

              We assessed risk exposure and the effectiveness of USAID/Colombia’s
              management controls for ensuring that the CAD program was on schedule to
              achieve planned outputs. We interviewed USAID/Colombia and Chemonics
              officials and reviewed the following management controls: 1) monitoring of
              program outputs through the mission’s performance monitoring plan and its March
              2001 Results Review and Resource Request report, 2) self-assessing its adherence
              with the Federal Managers’ Financial Integrity Act of 1982 in its October 2000
              report, 3) preparing monthly and quarterly progress reports, 4) obtaining quarterly
              progress reports from Chemonics, and 5) performing site visits.

              Methodology

              To answer the audit objective, we interviewed program officials at
              USAID/Colombia and Chemonics/Colombia. In addition, we reviewed and
              analyzed program documents and verified program results reported in the
              mission’s performance monitoring plan as of September 30, 2001.

              To determine whether the CAD program was on schedule to achieve planned
              outputs, we reviewed the following program documentation: the mission’s
              strategic plan for fiscal years 2000 through 2005; the U.S. General Accounting
              Office’s audit report No. 01-26 on U.S. assistance to Colombia, dated October
              2000; the request for proposal that resulted in the Chemonics contract; the Special
              Objective Grant Agreement Number 514-9003 with the Government of Colombia
              and all subsequent project implementation letters and amendments; the mission’s
              performance monitoring plan; the mission’s monthly results reporting; and the
              Chemonics contract and its quarterly progress reports for April through
              September 30, 2001. For the purpose of determining if the CAD program was on
              schedule to achieve planned outputs; we considered the program to be on
              schedule if 90 percent of the planned outputs were completed. This threshold
              reflected our judgments about the level of performance that was practical and
              achievable for the audited activities.


                                                                                                    9
                                                                      Appendix I

Further, we reviewed a list of activities planned by Chemonics for future periods
that, if implemented, would result in the accomplishment of the program’s
planned outputs.

Lastly, we performed steps to verify outputs achieved as of September 30, 2001,
as reported by USAID/Colombia. Specifically, we obtained and reviewed the
assumptions used by Chemonics to ascertain if the quantity of seeds purchased
would result in the reported number of supported hectares of licit crops and the
reported number of benefiting families. We verified the quantity of seeds
purchased by reviewing 100 percent of the receiving reports. We recalculated the
results using the same formulas used by Chemonics.




                                                                                10
                                                                                            Appendix II

Management
Comments




  United States Agency for
 International Development
           Bogotá



MEMORANDUM
Date:        12-17-01
To:          Timothy E. Cox, RIG/SS
From:        Clifford Brown, A/DIR [signed]
Subject:     Audit of USAID/Colombia-Financed Alternative Development Activities under the Plan
Colombia Supplemental Appropriation.

We have reviewed the draft report of the audit of USAID/Colombia-financed Alternative Development
activities under the Plan Colombia Supplemental Appropriation and have the following comments:

          Recommendation No.1: We recommend that USAID/Colombia amend its performance
          monitoring plan to agree with the planned outputs contained in its agreements with
          Chemonics and with the Government of Colombia.

We accept this recommendation. As explained in the audit report, there was considerable pressure to
implement these activities, given delays in program start-up. A planning exercise with USAID/Colombia
contractor Chemonics, the GOC alternative development entity Plante, and the USAID/Colombia
Alternative Development SO team, will take place during the second week of December 2001.

The expected results of this exercise will be the design of an annual activity plan and budget for 2002,
including expected program outputs. Once the activity plan is approved by USAID/Colombia, the
performance monitoring plan will be amended to reflect the agreed upon program outputs. The agreements
with Chemonics and the Government of Colombia will also be amended to reflect the activity plan and
expected outputs.

Copies of the activity plan and the amended performance monitoring plan will be sent to RIG/SS to fulfill
this recommendation.




                                                                                                        11
                                                                                           Appendix II

       Recommendation No.2: We recommend that USAID/Colombia review activity plans and
       the implementing agreements so that all documents use the same definitions and time
       frames and are sufficiently clear and specific as to determine how an by when outputs will
       be achieved.

We accept this recommendation. As explained above, once the activity plan is finished and approved by
USAID/Colombia, all documentation, including implementing agreements will be amended in order to
reflect same definitions, tame frames and outputs.

Copies of the activity plan and amended implementing agreements will be sent to RIG/SS to fulfill this
recommendation.




                                                                                                     12
